Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    MEDICARE COMPLIANCE
  REVIEW OF THE HOSPITAL OF
      THE UNIVERSITY OF
 PENNSYLVANIA FOR CALENDAR
  YEARS 2008 THROUGH 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky
                                               Regional Inspector General

                                                        July 2013
                                                      A-03-12-06104
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

The Hospital of the University of Pennsylvania did not fully comply with Medicare
requirements for billing inpatient and outpatient services, resulting in net overpayments of
$538,000 over 4 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether the Hospital of the University of
Pennsylvania (the Hospital) complied with Medicare requirements for billing inpatient and
outpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay. CMS pays for hospital outpatient services on a rate-per-service basis that
varies according to the assigned ambulatory payment classification.

The Hospital is a private 784-bed acute-care teaching hospital located in Philadelphia,
Pennsylvania. The Hospital is part of the University of Pennsylvania Health System. Medicare
paid the Hospital approximately $913.2 million for 33,051 inpatient and 543,593 outpatient
claims for services provided to beneficiaries during CYs 2008 through 2011 based on CMS’s
National Claims History data.

Our audit covered $3,961,324 in Medicare payments to the Hospital for 208 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 158 inpatient and
50 outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 154 of the 208 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 54 claims, resulting in net overpayments of $537,876 for
CYs 2008 through 2011. Specifically, 30 inpatient claims had billing errors resulting in net
overpayments of $279,041, and 24 outpatient claims had billing errors resulting in net
overpayments of $258,835. These errors occurred primarily because the Hospital did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.


Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)       i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $537,876, consisting of $279,041 in net overpayments
        for 30 incorrectly billed inpatient claims and $258,835 in net overpayments for 24
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally agreed with our findings and
provided information on actions that it had taken to address our recommendations.




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 The Medicare Program ............................................................................................1
                 Hospital Inpatient Prospective Payment System .....................................................1
                 Hospital Outpatient Prospective Payment System ...................................................1
                 Hospital Claims at Risk for Incorrect Billing ..........................................................2
                 Medicare Requirements for Hospital Claims and Payments ...................................2
                 Hospital of the University of Pennsylvania .............................................................3

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ................................................................3
                   Incorrectly Billed Diagnosis-Related Group Codes ................................................3
                   Incorrectly Billed as Inpatient ..................................................................................4
                   Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ...4
                   Incorrectly Billed as a Separate Inpatient Stay ........................................................5

           Billing Errors Associated With Outpatient Claims..............................................................5
                   Services Not Performed ...........................................................................................5
                   Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ...6
                   Incorrectly Billed as Outpatient ...............................................................................6
                   Noncovered Dental Services ....................................................................................7
                   Insufficiently Documented Service and Incorrectly Billed Healthcare
                     Common Procedure Coding System Code ..........................................................7

RECOMMENDATIONS .................................................................................................................7

HOSPITAL COMMENTS ..............................................................................................................7

APPENDIXES

           A: Audit Scope and Methodology ......................................................................................8
           B: Results of Review by Risk Area ..................................................................................10
           C: Hospital Comments ......................................................................................................11




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)                                                  iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether the Hospital of the University of Pennsylvania (the
Hospital) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)   1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work identified these types of hospital claims at risk for noncompliance:

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims paid in excess of charges,

    •   outpatient claims billed during inpatient stays,

    •   outpatient dental services,

    •   outpatient intensity modulated radiation therapy planning services, and

    •   outpatient claims billed with modifier -59.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).


1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)                 2
Hospital of the University of Pennsylvania

The Hospital, which is part of the University of Pennsylvania Health System, is a private
784-bed acute-care teaching hospital located in Philadelphia, Pennsylvania. Medicare paid the
Hospital approximately $913.2 million for 33,051 inpatient and 543,593 outpatient claims for
services provided to beneficiaries during CYs 2008 through 2011 based on CMS’s National
Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,961,324 in Medicare payments to the Hospital for 208 claims that we
judgmentally selected as potentially at risk for billing errors. These 208 claims consisted of
158 inpatient and 50 outpatient claims with dates of service in CYs 2008 through 2011 (audit
period). We focused our review on the risk areas that we had identified as a result of previous
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements, but
did not use medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                FINDINGS

The Hospital complied with Medicare billing requirements for 154 of the 208 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 54 claims, resulting in net overpayments of $537,876 for
the audit period. Specifically, 30 inpatient claims had billing errors resulting in net
overpayments of $279,041, and 24 outpatient claims had billing errors resulting in net
overpayments of $258,835. These errors occurred primarily because the Hospital did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors. For the results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 30 of 158 selected inpatient claims, which resulted
in net overpayments of $279,041.

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed



Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)   3
body member” (the Act, §1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 11 of the 158 selected claims, the Hospital billed Medicare for incorrect DRG codes.
Hospital officials attributed this to human error. As a result of these errors, the Hospital received
net overpayments of $133,419. The Hospital received overpayments of $142,022 (10 claims)
and was underpaid $8,603 (1 claim).

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)).

For 8 of the 158 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. Hospital
officials stated that the errors occurred because Hospital utilization review staff applied
inappropriate criteria in its review of the claims. As a result of these errors, the Hospital
received overpayments of $82,702. 2

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). Federal regulations state, “All payments to providers of services
must be based on the reasonable cost of services …” (42 CFR § 413.9). The Manual states that
to bill correctly for a replacement device that was provided with a credit, hospitals must code
Medicare claims with a combination of condition code 49 or 50, along with value code “FD”
(chapter 3, § 100.8). The CMS Provider Reimbursement Manual (PRM) reinforces these
requirements in additional detail. 3



2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.
3
  The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service.” “If costs are determined to exceed the level that such buyers
incur, in the absence of clear evidence that the higher costs were unavoidable, the excess costs are not reimbursable
under the program.” (part 1, § 2102.1). Section 2103 further defines prudent buyer principles and states that
Medicare providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or partial
credits or payments available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment supplied.”


Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)                    4
For 10 of the 158 selected claims, the Hospital did not obtain credits for replaced medical
devices for which credits were available under the terms of the manufacturers’ warranties. One
of the 10 claims also included a second replaced medical device. The Hospital received a
reportable credit from the manufacturer for the second device but did not adjust its inpatient
claim with the proper condition and value codes to reduce payment as required. Hospital
officials stated that the errors occurred because the Hospital had inadequate controls to identify,
obtain, and properly report credits from medical device manufacturers. As a result of these
errors, the Hospital received overpayments of $59,920.

Incorrectly Billed as a Separate Inpatient Stay

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

For 1 of the 158 selected claims, the Hospital billed Medicare separately for a related discharge
and readmission within the same day. Hospital officials stated that the error occurred because
Hospital utilization review staff applied inappropriate criteria in its review of the claims. As a
result of this error, the Hospital received an overpayment of $3,000.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 24 of 50 selected outpatient claims, which resulted
in net overpayments of $258,835.

Services Not Performed

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). In addition, the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). Further, the Manual requires hospitals to include the HCPCS
codes for the radiolabeled product and all related nuclear medicine procedures on the same
claim, regardless of the dates the procedures were performed (chapter 4, § 200.8).

For 7 of the 50 selected claims, Hospital personnel stated that the Hospital billed Medicare for
services that were not performed.

    •   For five claims ($143,457 overpayment), the Hospital incorrectly billed for a radiolabeled
        product (HCPCS code A9545) that was not administered. The Hospital billed five
        nuclear medicine procedures separately from the claims that included the radiolabeled
        products administered, but incorrectly added HCPCS code A9545 to each of the five
        claims. These errors occurred because billing staff incorrectly interpreted the Medicare
        requirement for billing nuclear medicine procedures.


Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)    5
    •   For one claim ($4,298 overpayment), the Hospital billed two HCPCS codes (33224 and
        33225) for the insertion of a medical device when only one HCPCS code (33224) was
        appropriate. The billing was attributed to human error.

    •   For the remaining claim ($244 overpayment), the Hospital billed for two cardiac
        procedures that were already billed on a separate claim for a previous date of service.
        This error occurred because the procedure report for the cardiac procedures was misfiled
        with the medical records for a subsequent date of service.

As a result of these errors, the Hospital received overpayments of $147,999.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 4 As
described on page 4 of this report, the PRM, part 1, chapter 21, reinforces these requirements in
additional detail.

For 8 of the 50 selected claims, the Hospital did not obtain credits for replaced medical devices
for which credits were available under the terms of the manufacturers’ warranties. One of the
eight claims also included a second replaced medical device. The Hospital received a reportable
credit from a manufacturer for the second device but did not properly report the “FB” modifier
and reduced charges on its claim. Hospital officials stated that the errors occurred because the
Hospital had inadequate controls to identify, obtain, and properly report credits from medical
device manufacturers. As a result of these errors, the Hospital received overpayments of
$88,095.

Incorrectly Billed as Outpatient

Certain items and nonphysician services furnished to inpatients are covered under Part A and
consequently are covered by the inpatient prospective payment rate (the Manual, chapter 3,
§ 10.4).

For 6 of the 50 selected claims, the Hospital incorrectly billed Medicare Part B for outpatient
services provided during inpatient stays. For four claims, the Hospital provided wound care,
radiation, injection, and air transport services to inpatients of other hospitals. Those services
should have been included on the other hospitals’ inpatient (Part A) claims to Medicare. For the
remaining two claims, the Hospital provided radiation therapy and blood transfusion services to
4
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)           6
inpatients of the Hospital and should have included these services on the Hospital’s inpatient
claims to Medicare. Hospital officials attributed this to human error in the Hospital’s manual
process for reviewing outpatient services provided during inpatient stays. As a result of these
errors, the Hospital received net overpayments of $11,165. The Hospital received overpayments
of $11,421 for five claims and was underpaid $256 for one claim.

Noncovered Dental Services

The Act precludes payment under Part A or Part B for any expense incurred for items or services
where such expenses are for services in connection with the care, treatment, filling, removal, or
replacement of teeth or structures directly supporting teeth (the Act, § 1862(a)(12)).

For 2 of the 50 selected claims, the Hospital incorrectly billed Medicare for the treatment or
removal of teeth. Hospital officials stated that the errors occurred because Hospital departmental
staff misinterpreted coverage eligibility requirements for dental services. As a result of these
errors, the Hospital received overpayments of $10,502.

Insufficiently Documented Service and Incorrectly Billed Healthcare Common Procedure
Coding System Code

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). In addition, the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2).

For 1 of the 50 selected claims, the Hospital billed Medicare for a service that was not supported
in the medical record and a separate incorrect HCPCS code. Hospital officials attributed this to
human error after the Hospital billing department moved from a paper-based billing process to a
paperless one. As a result of these errors, the Hospital received an overpayment of $1,074.

                                        RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $537,876, consisting of $279,041 in net overpayments
        for 30 incorrectly billed inpatient claims and $258,835 in net overpayments for 24
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                       HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally agreed with our findings and
provided information on actions that it had taken to address our recommendations. The
Hospital’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)   7
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $3,961,324 in Medicare payments to the Hospital for 208 claims that we
judgmentally selected as potentially at risk for billing errors. These 208 claims consisted of
158 inpatient and 50 outpatient claims with dates of service in CYs 2008 through 2011 (audit
period).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements, but did
not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from May 2012 through April 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 208 claims (158 inpatient and 50 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the medical record documentation provided by the Hospital to support the
        selected claims;




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)     8
    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for submitting Medicare claims;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)     9
                            APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                        Value of           Claims With
                                                      Selected          Selected         Underpayments/            Value of Net
                  Risk Area                           Claims            Claims            Overpayments            Overpayments
Inpatient
Claims Billed with High Severity Level
                                                            33          $828,853                     12                $149,445
Diagnosis-Related Group Codes
Short Stays                                                 71            608,279                      6                     60,445
Manufacturer Credits for Replaced Medical
                                                            50         1,801,722                     10                      59,920
Devices
Same-Day Discharges and Readmissions                         4            272,161                      2                      9,231

 Inpatient Totals                                         158         $3,511,015                     30                $279,041



Outpatient

Claims Paid in Excess of Charges                             5          $144,513                       5               $143,457
Manufacturer Credits for Replaced Medical
                                                            14            206,731                      9                     92,393
Devices
Claims Billed During Inpatient Stays                         7             16,140                      6                     11,165

Dental Services                                              3             13,101                      2                     10,502
Intensity Modulated Radiation Therapy
                                                             3             23,273                      1                      1,074
Planning Services
Claims Billed with Modifier -59                             18             46,551                      1                       244

 Outpatient Totals                                          50          $450,309                     24                $258,835



 Inpatient and Outpatient Totals                          208         $3,961,324                     54                $537,876


        Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
        outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
        billing errors we found at the Hospital. Because we have organized the information differently, the information in
        the individual risk areas in this table does not match precisely with this report’s findings.




        Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)                   10
                                  APPENDIX C: HOSPITAL COMMENTS



                                                                                    Office of Billing Compliance

 University of Pennsylvania Health System
                                                                                        Robert F. Bacon, MHA
                                                                                        Associate Vice President and
                                                                                        Billing Compliance Officer


                                                                                                         June 19, 2013
 VIA UPS


 Stephen Virbitsky
 Regional Inspector General for Audit Services
 U S Department of Health & Human Services
 Office of the Inspector General
 Public Ledger Building, Suite 316
 150 South Independence Mall West
 Philadelphia, PA 19106-3499

 Re:      Report Number A-03-12-06104
          Hospital of the University of Pennsylvania (HUP)

 Dear Mr. Virbitsky:

 I am writing on behalf of the Hospital of the University of Pennsylvania (HUP) in response
 to your draft report dated May 23, 2013.

 The University of Pennsylvania Health System (UPHS) is strongly committed to compliance
 with all applicable regulations. We understand the Office of the Inspector General’s (OIG)
 important role in ensuring compliance with billing regulations, and greatly appreciate the
 opportunity to respond to your draft report.

 As noted in the draft report and reiterated in Appendix A: Audit Scope and Methodology, the
 government’s sample was not randomly drawn, but instead “used computer matching, data
 mining, and other data analysis techniques to identify claims potentially at risk” …and “
 judgmentally selected 208 claims for detailed review”. We have reviewed in detail the draft
 findings and generally agree that 54 of 208 claims selected for review reflected inadvertent
 billing errors. Pursuant to instructions from your staff, UPHS has filed adjustment claims with
 Medicare for all 54 claims identified and provided copies of the same to your office.

 The following represents a brief discussion regarding identified errors and the related corrective
 action which has already been initiated by UPHS:

       1. Incorrectly Billed Diagnosis Related Group Codes

3101 Market Street • 1st Floor, Suite 160 • Philadelphia, PA 19104 • 215-349-8798 • Fax: 215-662-4572 • baconb@uphs.upenn.edu



 Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)                           11
Stephen Virbitsky
June 19, 2013
Page -2-


            a. These errors were principally attributable to incorrect selection of principal and/or
               secondary diagnosis codes by the coding staff when applying the ICD-9-CM
               coding guidelines and conventions.
            b. UPHS has conducted an additional, special education session for the coding staff
               on sequencing of principal and secondary diagnosis codes as specified in the ICD-
               9-CM Official Guidelines for Coding and Reporting. Coding staff were informed
               to refer any case requiring clarification regarding DRG assignment to the coding
               supervisor prior to billing.

    2. Incorrectly Billed As Inpatient
          a. These errors were principally attributable to incorrect application of InterQual
              criteria set by the Clinical Resource Coordinator (utilization review RN) as part of
              the utilization review process.
          b. UPHS has conducted additional training sessions for the Clinical Resource
              Coordinators on selection and use of InterQual Criteria to determine correct level
              of care. Staff were reminded that cases not meeting InterQual criteria must be
              referred for secondary review to the HUP physician advisor and/or an external
              physician advisor company retained by UPHS.

    3. Manufacturers Credits for Replaced Medical Devices Not Reported or Obtained
         a. These errors were attributable to inadequate controls to identify, obtain, and
            properly report credits from device manufacturers.
         b. UPHS conducted a series of interdepartmental meetings to include the clinical
            departments, Patient Accounting, Finance, Purchasing and Compliance to
            heighten awareness and develop effective controls for tracking and managing
            device credits. UPHS implemented the following action:
                i. A new process including a log for all device retrievals that immediately
                   sends devices back to manufacturers for device interrogation and
                   determination of credit amounts.
               ii. Developed a monthly reconciliation process with the manufacturers.

    4. Outpatient Claims Paid in Excess of Charges
         a. These errors were principally attributable to unique requirements with respect to
             billing nuclear medicine procedures resulting in data entry errors related to
             pharmaceuticals.
         b. UPHS conducted a focused education session for the staff involved with these
             services. More importantly, the staff were reminded that no services can be added
             to a claim without proof of documentation.




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)    12
Stephen Virbitsky
June 19, 2013
Page -3-



We appreciate the opportunity to respond to the draft audit report from the OIG, and believe that
our subsequent remediation efforts will greatly reduce the likelihood of similar problems in the
future.

If you have any questions or require additional information, please do not hesitate to contact me.

Respectfully submitted,


/Robert F. Bacon/


Pc:     Diane Corrigan
        Keith Kasper




Medicare Compliance Review of the Hospital of the University of Pennsylvania (A-03-12-06104)   13
